   Office of Inspector General
        Audit Report


FAA LACKS THE METRICS AND DATA NEEDED TO
ACCURATELY MEASURE THE OUTCOMES OF ITS
   CONTROLLER PRODUCTIVITY INITIATIVES

         Federal Aviation Administration

           Report Number: AV-2014-062
             Date Issued: July 9, 2014
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Lacks the Metrics and Data                   Date:    July 9, 2014
           Needed To Accurately Measure the Outcomes of
           Its Controller Productivity Initiatives
           Federal Aviation Administration
           Report No. AV-2014-062

  From:    Matthew E. Hampton                                    Reply to
                                                                 Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) employs more than 15,000 air traffic
           controllers at 315 facilities to guide pilots and separate aircraft in the National
           Airspace System (NAS). While FAA expects air travel to steadily increase over the
           next 20 years, total air traffic operations declined 23 percent between fiscal years
           2000 and 2012. Despite this recent decrease, the number of air traffic controllers
           remained relatively constant and controller costs increased.

           Citing concerns about whether controllers remained as productive as possible during a
           period of reduced air traffic, the Chairmen of the House Committee on Transportation
           and Infrastructure and its Aviation Subcommittee requested that we assess FAA’s
           plans to enhance controller productivity. The Chairmen also asked that we assess the
           factors that impact the achievement of expected benefits and determine the estimated
           cost savings that could be realized with improved controller productivity.

           Accordingly, we (1) assessed FAA’s initiatives to improve controller productivity in
           terms of expected benefits and cost savings to the Agency and (2) identified
           opportunities to measure the effectiveness of its productivity initiatives. We
           conducted our work in accordance with generally accepted Government auditing
           standards. Exhibit A details our scope and methodology, and exhibit B lists the
           organizations we visited or contacted.
                                                                                                                     2


In response to the same congressional request, we initiated an audit in February to
assess the relative efficiency of FAA air traffic control towers in order to determine
the factors affecting air traffic control tower productivity. 1

RESULTS IN BRIEF
Since 1998, FAA has implemented 51 initiatives intended to increase controller
productivity, reduce operating costs, and improve training and hiring practices.
However, FAA’s controller productivity initiatives are not yet achieving expected
benefits or cost savings. According to FAA, only two of these initiatives resulted in
measurable cost savings totaling approximately $4.5 million, while six initiatives
actually increased Agency costs due to rising overtime, salary, and training costs. For
example, despite implementing an initiative to reduce operational overtime costs,
FAA officials noted that overtime costs doubled due to operational needs and costs
associated with training controllers on new equipment. The remaining 43 initiatives
consist of 9 that are ongoing, 5 that were abandoned, and 29 that have been
completed; however, FAA has not demonstrated whether those completed have
resulted in cost savings or productivity gains.

FAA has been unable to demonstrate the results of its controller productivity
initiatives largely because it has missed opportunities to assess their effectiveness. For
example, FAA did not establish detailed baseline metrics or quantifiable cost and
productivity goals for 43 (84 percent) of its 51 initiatives. A lack of baseline goals
creates substantial challenges for FAA to ensure these initiatives are effective. In
addition, FAA is not maximizing operational and financial data regarding its
controller workforce. The Agency does not systematically collect or analyze these
data to reduce cost or improve productivity due to a number of barriers. These include
a lack of requirements and guidance for facility managers on analyzing existing data,
FAA’s inability to reach consensus on which metrics should be used to measure
controller productivity, and data control and entry weaknesses with controllers’ time
recording system. As a result, FAA cannot demonstrate whether many of its initiatives
have had the desired efficiency gains. However, FAA has taken steps to improve data
collection by issuing guidance to clarify procedures for recording employee time and
plans to make further changes to improve how it tracks and allocates controller time
in the system.

We are making recommendations to improve the effectiveness of FAA’s controller
productivity initiatives, as well as data collection at air traffic control facilities.




1
 OIG Audit Announcement, “Audit Initiated of the Productivity of FAA’s Air Traffic Control Towers,” February 20, 2014.
OIG reports and announcements are available on our Web site at http://www.oig.dot.gov/.
                                                                                                                            3


BACKGROUND
FAA generally defines controller productivity as the average number of operations
handled per controller at terminal facilities, or the average number of instrument flight
hours handled per controller at en route facilities. Controller productivity and
efficiency can also be evaluated by measuring controller unit cost per activity 2 or
controller time-on-position. 3 Further, while the volume of air traffic is the primary
driver of how productive controllers are, many factors can directly impact controller
productivity, including controller scheduling practices, training new and existing
controllers, airspace and airport runway configurations, and evolving Next Generation
Air Transportation System (NextGen) technologies.

Between fiscal years 2000 and 2012, air traffic operations dropped 23 percent, while
FAA’s controller workforce remained relatively constant (see table 1).

Table 1. Percentage Changes in Total Controller Workforce and Air
Traffic Operations, Fiscal Years 2000 Through 2012
Fiscal Year                          Controller Workforce                                  Air Traffic Operations
                             Total    Percentage Change                            Total     Percentage Change
2000                       15,153                         --               151,582,863                           --
2001                       15,233                        1%                146,641,693                       (3%)
2002                       15,478                        2%                141,499,671                       (4%)
2003                       15,691                        1%                138,150,912                       (2%)
2004                       14,934                      (5%)                141,314,126                         2%
2005                       14,540                      (3%)                142,166,569                         1%
2006                       14,618                        1%                137,441,579                       (3%)
2007                       14,874                        2%                137,316,956                         0%
2008                       15,381                        3%                133,111,523                       (3%)
2009                       15,770                        3%                120,288,553                      (10%)
2010                       15,696                        0%                118,875,108                       (1%)
2011                       15,418                      (2%)                118,390,567                         0%
2012                       15,211                      (1%)                117,324,105                       (1%)
Total Difference                58                       0%                (34,258,758)                     (23%)

Source: OIG analysis of FAA data




2
  Controller unit cost per activity is defined as the total amount of certified controllers and controllers-in-training costs
(personnel compensation and benefit costs) divided by the total number of activities (operations in the terminal environment
and instrument flight hours in the en-route environment).
3
  Controller time-on-position is the average number of hours a controller works monitoring and directing air traffic during an
8-hour shift.
                                                                                                                            4


Between fiscal years 2008 and 2012, controllers’ average total productive time
decreased by 17 minutes (see table 2).

Table 2. Average Productive Time Worked by Controllers per 8-Hour
Shift, Fiscal Years 2008 Through 2012
                                                                                              c
Fiscal Year                    Time-On-             Time Spent on           Productive Time
                                        a                         b
                               Position              Other Duties
2008                                  4:53                      0:49                      5:43
2009                                  4:39                      1:08                      5:47
2010                                  4:30                      1:08                      5:39
2011                                  4:28                      1:03                      5:32
2012                                  4:22                      1:04                      5:26
Time Change                  -31 minutes              +15 minutes                 -17 minutes
a
    Time-on-position is the time a controller spends “on-scope” separating air traffic.
b
 Time spent on other duties—the time a controller spends “off-scope” performing required collateral duties, such as training,
attending briefings, performing quality assurance and technical support functions, and other related duties.
c
  Productive time is time-on-position plus the time spent on other duties and illustrates the total amount of time a controller
spends performing their duties during an 8-hour shift.
Source: FAA


During this same period, controller payroll cost per air traffic activity increased
approximately 32 percent from $19 in fiscal year 2008 to $25 in fiscal year 2012 (see
figure 1).

Figure 1. Controller and Controller-in-Training Payroll Cost per Air
Traffic Activity, Fiscal Years 2008 Through 2012
     $30

     $25
                                                                                                  $25
     $20                                                                           $23
                                         $20                  $21
                    $19
     $15

     $10

      $5

      $0
                   2008                 2009                 2010                 2011            2012

Source: FAA


Exhibit C provides additional charts detailing controller productivity measurements.
                                                                                                                            5


Since 1998, FAA has introduced a series of initiatives intended to increase
productivity and reduce operating costs, including efforts to reduce operational
overtime and sick leave and achieve controller staffing cost savings through more
efficient processes. Some of these initiatives were negotiated between FAA and the
National Air Traffic Controllers Association (NATCA) in their 1998 collective
bargaining agreement (CBA). In 2003, FAA created the Air Traffic Organization
(ATO)—a performance-based organization intended to make FAA operate more like
a business. As a result of the reorganization, FAA developed many of its cost-saving
and productivity initiatives in its early Controller Workforce Plans (CWP) 4 beginning
in 2004.

FAA’S CONTROLLER PRODUCTIVITY INITIATIVES ARE NOT
ACHIEVING EXPECTED BENEFITS OR COST SAVINGS
We identified 51 initiatives that FAA introduced to increase controller productivity,
reduce operating costs, or improve training and hiring practices (see exhibit D for a
full list of the initiatives we identified and their status). According to FAA, only two
of its initiatives have resulted in measurable cost savings of approximately
$4.5 million:

• Worker’s Compensation/Return to Work Program. Initiated in FAA’s 2005
  and 2006 CWPs, this program aims to ensure that Office of Workers’
  Compensation Program benefits are used appropriately and to help return disabled
  and medically restricted personnel to work. According to FAA, the program
  achieved cost savings of $2.45 million between fiscal years 2004 and 2013 by re-
  assigning a total of 82 employees to permanent positions such as Administrative
  Support Assistant, Management and Program Analyst, Management and Program
  Assistant, and Flight Data Communications Specialist.

• Terminal Radar Training Simulators. According to FAA, the Agency has
  installed 166 SimFast radar training simulators since fiscal year 2010—which
  provide scenario-based radar training for trainees at their assigned facilities
  without using expensive radar equipment. FAA reported cost savings of over $2
  million by reducing the labor costs associated with training.

However, six initiatives intended to reduce operational costs actually increased
Agency costs. For example, FAA data indicate that despite implementing an initiative
to reduce air traffic controller operational overtime costs, these costs doubled between
fiscal years 2006 and 2012—from $33 million to $66 million.



4
 In December 2004, FAA issued its first annual CWP detailing its strategy for hiring and training new air traffic controllers
as required by Section 221 of Public Law 108-176 (updated by Public Law 111-117).
                                                                                                                    6


According to FAA officials, the increase was due to the operational needs at facilities,
costs associated with training controllers on new equipment, 5 and increased salary
rates due to the 2009 CBA. Initiatives to reduce costs associated with training, new
hire compensation, and sick leave abuse also instead resulted in increases (see
table 3).

Table 3. Controller Productivity Initiatives That Resulted in Increased
Costs
Initiative and Source          Goal/Savings Promised               Result
New Hire Pay                   Control salary costs for newly      In FY 2006, the average Personnel,
2005 CWP                       hired controllers through           Compensation and Benefit (PC&B) cost for
                               renegotiated pay rules with         new trainees was about $112,000. By FY
                               NATCA.                              2009, the average cost had dropped 31
                                                                   percent to about $78,000. By 2012, the
                                                                   average cost rose to about $106,000.
Overtime Management            Reduce operational overtime         Overtime rates and costs have doubled from
1998 CBA, 2005 & 2006          costs.                              $33 million in 2006 to $66 million in 2012.
CWPs
Sick Leave Use                 Reduce sick leave by 8 percent      From 2006 to 2012, average controller sick
1998 CBA, 2005 & 2006          by addressing sick leave abuse      leave increased from 97 to 100 hours per
CWPs                           (equal to 73 controller salaries)   controller.
Initial FAA Academy            Change compensation and             In FY 2006, average developmental PC&B cost
Training Costs                 benefits for new trainees to        was $112,000. By FY 2009, it had dropped 31
2005 & 2006 CWPs               reduce the average cost per         percent to $78,000. In 2012, it was $106,000,
                               trainee by $20,000.                 which is 37 percent higher than in 2009, but still
                                                                   5 percent lower than in FY 2006.
Web-Based Training             Save up to $20 million over 10      Overall, average costs for Academy students
2005- 2007 CWPs                years by eliminating salary         have risen 10 percent over the past 6 years.
                               and per diem during 5 weeks
                               of Academy training.
Work Efficiency                Achieve controller staff            Based on FAA data, between fiscal years 2005
2005- 2007 CWPs                savings of 10 percent by FY         and 2010, operations per controller decreased
                               2010 through increased work         by 23 percent.
                               efficiency.
Source: FAA and OIG analysis of FAA data



FAA HAS MISSED OPPORTUNITIES TO ASSESS THE
EFFECTIVENESS OF ITS PRODUCTIVITY INITIATIVES
FAA has not fully leveraged opportunities to assess controller productivity and the
effectiveness of its initiatives. Specifically, FAA did not establish detailed baseline
metrics or quantifiable cost and productivity goals for 43 (84 percent) of its
51 initiatives. Data analysis and collection deficiencies further limit FAA’s efforts to
assess its initiatives’ effectiveness. As a result, FAA cannot demonstrate whether
many of its initiatives have had the desired efficiency gains.


5
 For example, controllers must receive training on the Agency’s new En Route Automation Modernization (ERAM)
system, a multibillion dollar system for processing flight data at en route air traffic control facilities.
                                                                                       7


FAA Did Not Develop Baseline Metrics With Quantifiable Productivity
and Cost Goals for Most of Its Initiatives
FAA lacks quantifiable baseline productivity and cost goals for 43 (84 percent) of its
51 controller productivity initiatives. (These 43 initiatives consist of 9 that are
ongoing, 5 that were abandoned, and 29 that have been completed). Without
predefined goals, FAA will face challenges to ensure the effectiveness of these
initiatives. For example:

• Facility Realignment. The 2005 and 2006 CWPs included an initiative for co-
  locating and realigning operations at its air traffic control facilities to improve
  staffing efficiency and decrease operating, maintenance, infrastructure, and
  permanent change-of-station moving costs. Even though FAA subsequently
  completed seven small air traffic facility realignments, the Agency could not
  provide data showing whether the realignments resulted in cost savings or
  improved productivity.

• Expanded Use of Simulators. Since 2005, FAA’s CWPs have included an
  initiative to expand the use of simulators at field facilities to reduce training costs
  and the time required to attain certification. However, this initiative did not
  include a predefined goal or baseline metric, such as expected cost savings or
  projected decrease in training time, which would have enabled FAA to determine
  whether the initiative achieved expected benefits. And while FAA acknowledges
  in several CWPs that the use of simulators can reduce training time and costs, to
  date FAA has not analyzed available data or quantified the actual cost savings.

Data Analysis and Collection Deficiencies Limit FAA’s Efforts To Assess
the Effectiveness of Its Controller Productivity Initiatives
Data analysis and collection deficiencies have further limited FAA’s ability to assess
whether its initiatives are meeting their intended goals. For example, FAA does not
regularly analyze the substantial operational and cost data generated by its numerous
databases to determine if it could reduce costs or improve productivity. These
databases include the Federal Personnel Payroll System; FAA’s cost accounting
system; and ATO’s time recording system, Cru-X/ART, which allows the Agency to
measure elements of productivity, such as facility cost per operations, controller time-
on position, controller productive time, and controller participation in workgroups.

We identified several barriers to the collection and analysis of existing data:

• Lack of Requirements and Guidance. Facility managers stated that while FAA
  provides them with some data on controller productivity and cost for their
  facilities, they are not required to use the data to identify possible productivity
  improvements or cost reductions. Similarly, while managers have the ability to
  extract operational data from systems, such as Cru-X/ART, they are not required
                                                                                        8


       to analyze the data. According to facility managers, FAA Headquarters has not
       provided adequate guidance on how to evaluate or increase controller productivity.

• Inability To Reach Consensus on Metrics. Other FAA divisions disagree with
  ATO on which metrics are appropriate to measure controller productivity. For
  example, FAA’s Shared Services Division 6 collects and summarizes operational
  and financial data for all air traffic facilities and measures factors such as unit cost
  per activity, controller time-on-position, and controller productive time. However,
  controllers and ATO officials we spoke with indicated that they resist using these
  data due to concerns over whether some metrics, such as time-on-position, are
  appropriate measures for controller productivity. Several ATO officials stated that
  time-on-position was not an appropriate measure of productivity because it does
  not include the time spent performing other required duties, such as training and
  briefings.

• Data Control and Entry Weaknesses. While FAA’s systems could provide the
  Agency with data for analyzing controller productivity and costs, several data
  control and entry weaknesses may limit the data’s usefulness. For example, some
  off-scope time codes in Cru-X/ART, such as “duty time—other” or “training—
  other,” are too broad to track controllers’ time to specific collateral duties, such as
  redesigning air routes and procedures, attending briefings and training, and
  NextGen-related workgroup activities. We also found that, per a 2010 National
  Memorandum of Understanding between FAA and NATCA, operations
  supervisors are responsible for maintaining time-on-position records in Cru-
  X/ART for all controllers. However, because time entry in Cru-X/ART is
  secondary to providing safe operations, a supervisor may inadvertently overlook a
  controller going on break or switching positions if a flight emergency arises.
  These deficiencies limit the usefulness of Cru-X/ART—which FAA uses to
  account for and distribute its controller workforce labor costs. We identified other
  data control lapses that could limit data usefulness. For example, night shift
  supervisors at one facility were allowed to certify the time and tasks completed by
  day shift controllers, even though the supervisors were not on duty to verify the
  duties the controllers actually performed.

Some of these data weaknesses have been longstanding. For example, in 2005, the
Agency implemented an initiative to track and analyze controller participation in
meetings, conferences, and workgroups to assess the benefits, financial impacts, and
return on investment of the controllers’ involvement. However, these data were not
consistently tracked at the facility level, and FAA only analyzed the data on an ad hoc
basis. During this fiscal year, FAA plans to improve some of these concerns by
adding more specific task codes to Cru-X/ART and has issued guidance to clarify
procedures for recording employee time. According to ATO officials, the new process
6
    FAA’s Shared Service is a division within FAA’s Office of Finance and Management.
                                                                                         9


will help the Agency take advantage of existing tools and information to allow better
planning and ensure the proper levels of participation in workgroups.

CONCLUSION
Maximizing controller productivity is critical to achieve operational efficiencies and
control costs. While FAA’s controller productivity initiatives are a positive step, the
Agency has yet to accurately measure the outcome of those initiatives, which limits its
ability to further improve productivity and reduce operating costs. Until FAA takes
action to establish sound baseline metrics and leverage its existing data, it will be
difficult to measure the success of any efforts to improve controller efficiencies.

RECOMMENDATIONS
To improve the effectiveness of FAA’s controller productivity initiatives and its data
collection at air traffic control facilities, we recommend that FAA:

1. Assess current controller productivity initiatives to determine whether they will
   achieve anticipated cost savings or productivity gains and document the results of
   this assessment.

2. Develop a process to ensure future controller productivity initiatives include
   measurable milestones and cost and productivity goals.

3. Analyze its operational and financial data to identify opportunities to increase
   controller productivity and reduce operating costs.

4. Require controllers to maintain their own time-on-position records by signing in
   and out in Cru-X/ART.

5. Ensure that all facilities implement and use new Cru-X/ART task codes designed
   to better differentiate the tasks that controllers are completing.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 22, 2014, and received its formal
response on June 20, 2014, which is included in its entirety as an appendix. In its
response, FAA fully concurred with all five of our recommendations and proposed
reasonable timeframes for completing the appropriate action plans. Based on FAA’s
response, we consider all five recommendations resolved but open pending
completion of the planned actions.
                                                                                    10


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions regarding this report, please contact me at (202) 366-
0500, or Robert Romich, Program Director, at (202) 366-6478.

                                          #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                      11


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from January 2013 to May 2014 in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To determine the initiatives introduced by FAA to increase controller productivity,
reduce operating costs, or improve training and hiring practices, we interviewed FAA
officials from Shared and Management Services, the Air Traffic Organization (ATO)
Terminal & En Route Offices, and the National Air Traffic Controllers Association’s
(NATCA) Headquarters. We also requested a list of initiatives from FAA; however,
no list was provided. As a result we analyzed eight annual FAA CWPs between 2005
and 2012, the House fiscal year 2002 Transportation Appropriation Bill, and four
FAA/NATCA (1998, 2003, 2006, and 2009) collective bargaining agreements (CBA).
We identified 51 controller productivity initiatives.

To determine the status of each initiative we provided ATO officials a list of the
51 initiatives we identified and requested a status update. We also conducted site
visits to 18 out of 315 FAA air traffic facilities, including 5 Terminal Radar Approach
Controls (TRACONs), 3 Air Route Traffic Control Centers (ARTCCs), and 10
towers. We selected the facilities based on similar activity levels, type, complexity
and geographic/metropolitan layout of the surrounding area. During the site visits we
interviewed air traffic managers to determine what initiatives have been implemented
and the effectiveness of the initiatives. We also determined if the managers measure
controller productivity and how and what guidance they received from FAA
Headquarters. Lastly we discussed local controller productivity initiatives and
weaknesses in the Cru-X/ART time and attendance system.

We also gathered and analyzed productivity data such as Labor Obligations,
Controller Payroll, Certified Professional Controller (CPC) and Certified Professional
Controller in Training (CPC-IT) combined Payroll, etc. for all 315 air traffic facilities
and 5 fiscal years (2008 to 2012) from FAA’s Shared Service officials. The data also
included facility type, level, number of activities, number of direct employees and
number of CPCs and CPC-ITs, time on position (TOP), productive time, activities per
CPC and CPC-IT, CPC payroll per activity and CPC and CPC-IT payroll per activity.
We tested the reliability of FAA’s data by randomly selecting 70 facility-fiscal year
combinations from a universe of 1,573. We then extracted pay information from
DOT’s Financial Reporting System (Delphi), and DOT’s Federal Pay and Personnel
System (FPPS) for the 70 facilities-fiscal year combinations in our sample. We
compared the Delphi and FPPS data to the FAA reported data for Labor Obligations,
Controller Payroll, CPC/CPC-IT Payroll and CPC/CPC-IT Controllers On Board, and


Exhibit A. Scope and Methodology
                                                                                         12


concluded that FAA’s data were reliable enough for the purpose of this audit. In
addition, we were unable to verify the time on position (TOP) and productive time
data because we did not have access to the Cru-X/ART database. However, during the
site visits to the air traffic facilities, we asked the air traffic managers to validate the
TOP and productive time data we received from FAA Headquarters. The air traffic
managers stated the data were very close to their numbers and we concluded the data
to be reasonable for the purpose of this audit.




Exhibit A. Scope and Methodology
                                                          13


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters, Washington, DC
Air Traffic Organization (ATO)
   •   Chief of Staff
   •   Terminal Services
   •   En Route and Oceanic Services
   •   Terminal Safety & Operations Support
   •   Management Services
   •   Safety and Technical Training
   •   Strategic Planning and Performance Group
   •   Mission Support Services

Office of Financial Services
   •   Office of Labor Analysis
   •   Office of Financial Analysis

FAA Air Route Traffic Control Centers (ARTCC)
   • Atlanta ARTCC (ZTL)
   • Chicago ARTCC (ZAU)
   • Oakland ARTCC (ZOA)

FAA Terminal Radar Approach Control Facilities (TRACON)
   •   Atlanta TRACON (A80)
   •   Chicago TRACON (C90)
   •   Dallas-Fort Worth TRACON (D10)
   •   Northern California TRACON (NCT)
   •   Southern California TRACON (SCT)

FAA Air Traffic Control Towers (ATCTs)
   •   Atlanta (ATL)
   •   Chicago O’Hare (ORD)
   •   Dallas-Fort Worth (DFW)
   •   Dallas Love Field (DAL)
   •   Indianapolis (IND)
   •   Los Angeles (LAX)
   •   Chicago Midway (MDW)
   •   San Antonio (SAT)



Exhibit B. Organizations Visited or Contacted
                                                                            14


  • San Francisco (SFO)
  • New Orleans (MSY)

FAA Service Area
  • Office for Eastern Terminal Operations, Southern Skies District

Industry Groups
  • National Air Traffic Controllers Association (NATCA) Headquarters Office,
    Washington, DC




Exhibit B. Organizations Visited or Contacted
                                                                                                                        15


EXHIBIT C. DATA ON CONTROLLER ACTIVITIES AND COST
Between fiscal years 2008 and 2012, FAA data show that the number of activities per
controller dropped 25 percent at terminal facilities and 16 percent at en route facilities
(see figure 2).

Figure 2. Activities per Controller at En-Routea and Terminal Facilities,b
Fiscal Years 2008 Through 2012
    15,000
                      13,434

                                            11,909
    12,000                                                         11,152
                                                                                         10,538
                                                                                                               10,141

      9,000



      6,000            5,395
                                             4,865                 4,733                 4,656                  4,524


      3,000
                       2008                  2009                   2010                  2011                  2012

                                                          Terminal            En Route


a
    Activities at terminal facilities are measured by the number of take offs and landings controllers [monitor].
b
    Activities at en route facilities are measured by the number of instrument flight rule hours.
Source: FAA


Between fiscal years 2008 and 2012, terminal air traffic activity decreased
approximately 13 percent and en route activity decreased 10 percent. However, during
this same time period, controller payroll cost per activity 7 increased 35 percent at
terminal facilities and 25 percent at en route facilities (see figure 3).




7
 Controller payroll cost per activity is calculated by dividing the total personnel compensation and benefits paid to
controllers by the total operations in the operating environment in a given year.


Exhibit C. Data on Controller Acti vities and Cost
                                                                                                      16


Figure 3. Air Traffic Activities and Controller and Controller-in-Training
Payroll Cost per Activity at En-Route and Terminal Facilities, Fiscal
Years 2008 Through 2012
Air Traffic Activities at En-Route and           Controller and Controller-in-Training
Terminal Facilities, in Thousands                Payroll Cost Per Activity
100,000                                          $60
          86,666
                     79,293                                                                  $47.91
 85,000                                          $50
                          77,737 76,546 75,752                                     $43.98
                                                                $41.18 $42.03
                                                       $38.20
 70,000                                          $40


 55,000                                          $30

                                                                                   $15.81 $17.31
 40,000                                          $20
                                                                     $14.46
          27,271 25,033 24,979                         $12.84 $13.83
                               24,862 24,545
 25,000                                          $10


 10,000                                           $-
              2008   2009   2010   2011   2012         2008      2009      2010    2011      2012

                 Terminal      En Route                         Terminal          En Route

Source: FAA




Exhibit C. Data on Controller Acti vities and Cost
                                                                                                                          17


EXHIBIT D. STATUS OF FAA’S CONTROLLER PRODUCTIVITY
INITIATIVES
Initiative, Source           Expected Benefits                          Goals Outcomes/Status
                                                                       Defined
Savings Achieved, as Reported by FAA
Worker's Compensation/       Increase staffing efficiencies by           X    From FY 2004 through FY 2013, the program
Return to Work Program       adopting a proactive approach to help            saved the Agency $2.45 million.
2005 & 2006 CWPs             return disabled and temporarily
                             medically restricted personnel to work.
Install SimFast Radar        Increase technical proficiency and          X    FAA saved more than $2 million due to the
Simulator Capability         improve the training program.                    reduction of scenario generation labor.
2011 CWP
Savings Not Achieved, as Reported by FAA
New Hire Pay                 Control salary costs for new hires          X    Between FY 2006 and 2009, the average
2005 CWP                     through renegotiated pay rules with              developmental PC&B cost dropped 31% from
                             NATCA.                                           roughly $112,000 to $78,000, then increased
                                                                              37% by FY 2012 to about $106,000.
Management of Overtime       Reduce operational overtime costs.          X    Controller overtime costs doubled from
1998 CBA; 2005 & 2006                                                         $33 million in 2006 to $66 million in 2012.
CWPs
Address Sick Leave Abuse     Reduce sick leave by 8 percent, which           From 2006 to 2012, average controller sick
1998 CBA; 2005 & 2006        is equivalent to a savings of                    leave increased slightly from 97 to 100 hours
CWPs                         approximately 73 controllers.                    per controller per year.
Reduce Costs of Initial      Change the compensation level and               Although the average salary of
Training at FAA Academy      benefits for new trainees to reduce the          developmental controllers has decreased five
2005 & 2006 CWPs             average cost per trainee by $20,000.             percent since FY 2006, the average costs for
                                                                              Academy students have risen 10% over the
                                                                              same timeframe.
Convert Air Traffic          Reduce costs by eliminating salary              Overall, average costs for Academy students
Academics to Web-Based       and per diem costs during 5 weeks of             increased 10% over the past 6 years.
Delivery                     training at the Academy. The Agency
2005–2007 CWPs               estimated it could save up to $20
                             million over 10 years.
Work Efficiency              Achieve a controller staff savings of           Between FY 2005 and FY 2010 operations
2005-2007 CWPs               10% by FY 2010 through increased                 per controller decreased by 23%.
                             work efficiency.
Completed
Evaluate the Effectiveness   Determine if AT-SAT examinations            X    In November 2012, the Civil Aerospace
of the AT-SAT for            can be used to more accurately predict           Medical Institute (CAMI) completed its
Placement                    a candidate’s success for the various            evaluation of the validity, utility, and fairness
2005-2006 CWPs               levels of complexity across facilities.          of the AT-SAT test to be used for placement.
                                                                              CAMI suggested that AT-SAT is an effective
                                                                              predictor of job performance, but should not
                                                                              be used to guide placement decisions.
Reduce Time to               Reduce training time to CPC to 2                Terminal met its 2 year goal; however, en
Certification                years for terminal controllers and 3             route has not met its 3 year goal. Based on
2007-2012 CWPs               years for en-route controllers.                  the data from the National Training Database
                                                                              (NTD), the average time to CPC for terminal
                                                                              controllers is under 2 years, while the
                                                                              average time to CPC for en-route controllers
                                                                              is slightly higher than 3 years. FAA officials
                                                                              blame the en-route delay on training
                                                                              controllers on new equipment such as En
                                                                              Route Automation Modernization (ERAM).




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                                                                                            18


Controller Participation in   Develop a plan to ensure requests for           X   FAA implemented a database to collect and
Workgroups, Meeting, and      labor representation are assessed for               track personnel and costs associated with
Conferences                   benefit, financial impact, and return on            controller participation in workgroups and
2005-2006 CWPs                investment. Each organization is                    projects. However, FAA officials stated that
                              required to validate the use of union               analyses of this data were done on an ad-hoc
                              representatives on a monthly basis.                 basic. FAA is putting a new process in place
                              The goal of this plan is to increase                for FY 2014 to better track and authorizes
                              efficiency by reducing backfill overtime            workgroup participation.
                              hours and costs.
Completed but Impact Not Quantified
New Hire Interview Process Institute a new hire interview process             X   In 2007, FAA instituted an Air Traffic Control
2007 CWP                   to help with placement decisions by                    Specialist new hire interview process to
                           validating the experience of                           validate the experience of all new hires.
                           candidates and placing them based on                   However, FAA provided no data to support
                           their skill level.                                     the initiative’s success or failure.
Reclassification of Air       Evaluate air traffic control facilities for     X   Between January 2012 through April 2013,
Traffic Control Facilities    reclassification based on traffic counts            FAA downgraded 127 facilities and upgraded
2005-2007 CWP                 and other factors in order to save                  8 facilities. FAA officials stated that the
                              costs by starting new controllers at                downgrades resulted in minimal cost savings
                              lower salary levels.                                because controller pay remained unchanged.
                                                                                  However, FAA did not provide the cost
                                                                                  information.
Track Applicants              Better monitor the progress of                  X   FAA has implemented a comprehensive
2005-2006 CWPs                individual candidates from referral to              system to track new hires through the hiring
                              placement.                                          process. However, FAA did not provide data
                                                                                  to support the effectiveness of the initiative.
Institute Even-Flow Hiring    Improve controller hiring and training          X   FAA centralized and streamlined their hiring
2005-2006 CWPs                and maintain more effective and                     process in 2006. However, FAA did not
                              efficient use of resources.                         provide data to support the effectiveness of
                                                                                  the initiative.
Leverage and Expand           Supplement hiring between FY 2007               X   Vacancy announcements were opened to the
Hiring Sources                and FY 2015 by opening vacancy                      general public between 2007 and 2009. In
2005-2006 CWPs                announcements to the general public.                addition, FAA established an internship
                              Also, examine the option of expanding               program between facilities and Collegiate
                              the FAA Intern and Student Career                   Training Initiative (CTI) schools at the local
                              Experience Program to include the air               level. However, FAA did not provide data to
                              traffic control occupation.                         support the effectiveness of the initiative.
Build Central Inventory       Build a central inventory to track the          X   FAA has implemented an electronic
2005-2006 CWPs                numbers of available candidates and                 application system called the Automatic
                              create a more efficient and uniform job             Vacancy Information Access Tool for Online
                              application process.                                Referral (AVIATOR). However, FAA did not
                                                                                  provide data to support the effectiveness of
                                                                                  the initiative.
Fully Implement AT-SAT        Improve the hiring decision process by          X   The AT-SAT test was administered to the CTI
2005-2006 CWPs                administering the AT-SAT examination                applicants in 2002 and to the general public
                              to all potential candidates, except                 applicants in 2004. However, FAA did not
                              those whose hiring program is based                 provide data to support the effectiveness of
                              on prior air traffic experience.                    the initiative.
Multi-Path Hiring and         Implement multi-path hiring and                 X   FAA has implemented the multi-path training
Training Models               training models which varies the                    approach that distinguishes the amount of
2005-2010 CWPs                amount and type of training on the                  training needed based on the applicant’s
                              applicant’s education, experience, and              aviation experience. However, FAA did not
                              type of facility he/she will be assigned            provide data to support the effectiveness of
                              to in order to provide air traffic facilities       the initiative.
                              with developmental controllers
                              prepared to begin training at the
                              facility.
Facility Co-Locations and     Decrease FAA’s operating,                       X   FAA has completed the realignment of seven
Realignments                  maintenance, infrastructure and                     small TRACONs into larger TRACONs.
2005-2006 CWPs                permanent change of station costs.                  However, FAA did not provide data to support
                                                                                  the cost effectiveness of the initiative.




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                                                                                     19


Official Time               Reduce official time usage for union        X   Article 2 of the 2009 NATCA/FAA CBA
1998 and 2009 CBAs; 2005-   representation duties that is not               includes a provision that established the
2006 CWPs                   authorized by statute or contract.              number of official hours controllers are
                                                                            allowed to use for union representation and a
                                                                            database to track official time was instituted.
                                                                            However, FAA did not provide data to support
                                                                            the effectiveness of the initiative.
Deployment of Cru-X/ART     Fully deploy Cru-X/ART by the end of           Cru-X/ART was fully deployed 8 years ago in
2005-2006 CWPs              FY 2005. Cru-X/ART is a computer                2005, but due to changes in Windows
                            based tool used to record time,                 operating systems, is reaching the end of its
                            attendance, and labor distribution for          useful life. FAA is collaborating with NATCA,
                            operational controllers and supervisors         the Air Traffic Supervisor's Committee, and
                            with the goal of more efficiently               other operational and financial stakeholders
                            utilizing staff.                                to identify the business needs for a
                                                                            replacement system. However, FAA did not
                                                                            provide data to support the original system
                                                                            was effective.
Contract Tower Program      Lower FAA operating costs by                X   As of November 2012, the Contract Tower
2005-2008 CWPs              expanding the contract tower program.           Program was expanded to 251 towers.
                                                                            However, none of the additions were formally
                                                                            FAA-operated towers and no cost savings
                                                                            assessment was provided.
Flight Service Station      Reduce outside hiring by transitioning      X   Between 2006 and 2007, former Flight
Personnel                   Flight Service Station personnel into           Service Station personnel who applied for
2005-2006CWPs               air traffic control and place at terminal       FAA vacancy announcements were given
                            facilities under the Preferred                  priority consideration under a Special
                            Placement Program.                              Placement Program. However, FAA did not
                                                                            provide data to support the effectiveness of
                                                                            the initiative.
Age 56 Rule Waivers         Retain qualified controllers at targeted    X   FAA has implemented the Age 56 Waiver
2005-2006 CWPs              locations by granting waivers to age            and the waiver was documented in Title 5,
                            56 air traffic controllers, who would           United State Code (USC), Section 8335(a)
                            otherwise be required to retire.                and the agency policies. However, FAA did
                                                                            not provide data to support the effectiveness
                                                                            of the initiative.
Controller Credentialing    Increase safety through regulated           X   FAA issued credentials to every controller
2009 CWP                    standards for training, testing,                who is medically qualified and current.
                            currency, and proficiency.                      However, no productivity or safety
                                                                            enhancement statistics were provided.
Flexible Work Schedule,     Save on labor costs and increase            X   Article 34 Section 4 of the 2009 NATCA/FAA
Increase Use of Part-time   employee retention by offering                  CBA includes a provision that covers
Controllers &               additional job flexibility.                     alternative work schedules, flexible work
Implementation of Split                                                     schedules and compressed work schedules.
Shift                                                                       However, FAA did not provide data to support
1998 CBA & 2006 CWP                                                         the effectiveness of the initiative.
Facility Imbalances         Restrict the movement of any                X   FAA has implemented policy 5 USC 2301
2005 CWP                    employee from one position to                   and 2302 that create equal job opportunity
                            another, within or outside of the local         and prevent managers from holding an Air
                            commuting area if it is in the best             Traffic Control Specialist for any period
                            interest of the Agency. The goal of this        greater than 2 years. However, FAA did not
                            initiative is to maintain balanced              provide data to support the effectiveness of
                            staffing.                                       the initiative.
FAA Academy Simulation      Expand use of simulators at the FAA         X   FAA installed tower simulation systems at the
2005-2010 CWPs              Academy. The goal is to reduce the              Academy in 2007 to train developmental
                            time to CPC by providing                        controllers. However, FAA did not provide
                            developmental the opportunity to                data to support the effectiveness of the
                            practice seldom-used skills and                 initiative.
                            practice complex scenarios.




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                                                                                        20


Air Traffic Facility          Expand the use of simulators at field        X   The tower simulators were deployed to over
Simulation                    facilities to reduce the time required to        130 air traffic facilities. While FAA initially
2005-2012 CWPs                attain CPC and achieve increasing                reported the tower simulators decreased on-
                              levels of certification. Also, reduce            the-job training times for local and ground
                              training costs and increase flexibility in       controllers by 15% to 40%, follow-up
                              scheduling, and reduce stress on                 discussions with ATO officials indicated that
                              training resources.                              no data analysis has been conducted and the
                                                                               results have not been quantified.
Voice Recognition &           Expand the use of VRR Technology             X   FAA has incorporated the VRR technology
Response (VRR)                into terminal and en route field                 into tower simulation systems. The use of
Technology                    simulation capabilities to reduce                VRR technology has reduced remote pilot
2006-2007 CWPs                training resources, training time, and           operators (RPOs) labor hours. However, FAA
                              training costs associated with facility          did not provide data to support the
                              certification training.                          effectiveness of the initiative.
Redesign Academy En-          Raise student performance levels and         X   FAA completed the redesign of en-route
Route Airspace                replicate actual airspace to allow for           airspace at the Academy in January 2011.
2005-2006 CWPs                more realistic training.                         However, FAA did not provide data to support
                                                                               the effectiveness of the initiative.
Leverage Training Sources     Reduce costs of delivering training and      X   From FY 2005 -FY 2007, FAA used contract
2005-2006 CWPs                the drain on internal training                   instructors to address the ebb and flow of
                              resources.                                       controller training requirements at the
                                                                               Academy and field facilities. In 2007, the FAA
                                                                               expanded the AT-CTI from 13 to 31 schools
                                                                               which saved FAA 5 weeks of training at the
                                                                               Academy. However, FAA did not provide cost
                                                                               data to support the effectiveness of the
                                                                               initiative.
Knowledge Transfer            Hire retired FAA air traffic controllers     X   Raytheon, an FAA contractor, has hired
2008-2010 CWPs                as contractors to train new hires.               retired air traffic controllers as contract
                                                                               instructors to train developmental controllers.
                                                                               However, FAA did not provide data to support
                                                                               the effectiveness of the initiative.
Establishing a Proficiency    Establish a competency-based                 X   FAA has updated the job task analysis for air
Program Using a               approach to training developmental               traffic control. However, FAA did not provide
Competency-Based              controllers which includes mapping               data to support the effectiveness of the
Approach                      curriculum to job task information and           initiative.
2011 CWP                      aligning with objectives, assessments,
                              proficiency and media.
FAA’s Call to Action          Improve processes for hiring and             X   In 2011, the FAA convened an Independent
2012 CWP                      training the controller workforce.               Review Panel which made 49
                                                                               recommendations. However, only 14
                                                                               recommendations have been implemented
                                                                               and are on schedule and FAA did not provide
                                                                               data to support the effectiveness of the
                                                                               initiative.
Processing of Unsuccessful Reduce staffing imbalances. During              X   FAA revised its supplement employment
Developmental              FY 2005, FAA prohibited the                         policy to establish a National Employee
2005-2006 CWPs             movement of air traffic control                     Services Team, a joint FAA/NATCA group
                           specialists in training from en-route to            which recommends retention and potential
                           terminal when vacancies did not exist.              placement opportunities within FAA.
                                                                               However, FAA did not provide data to support
                                                                               the effectiveness of the initiative.
Ongoing

Changing the National         Increase controller efficiency and           X   FAA is implementing and training controllers
Airspace System               improve productivity.                            on new systems, such as Advanced
Technologies                                                                   Technologies & Oceanic Procedures (ATOP),
2005-2006 CWPs                                                                 User Request Evaluation Tool (URET),
                                                                               ERAM, and other NextGen programs.




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                                                                                            21


National OJT Data Tracking     Track controller training to identify            FAA implemented the National Training
System                         specific areas where efficiencies can             Database (NTD) in 2006. Currently, FAA
2005-2010 CWPs                 be gained and identify areas where the            continues to use the NTD database to track
                               training process is broken. FAA’s goal            and obtain information regarding controller
                               is to have 90 percent of controller               training. However, FAA did not provide data
                               developmental controllers on track with           to support the effectiveness of the initiative.
                               training.
Reviewing FAA’s Training       Review FAA Order 3120.4 and                   X   On March 15, 2011, FAA added on-the-job
Order                          incorporate checklists to make sure               training checklists to the Terminal and En
2008-2012 CWPs                 on-the-job training (OJT) is done                 Route Instructional Program Guides. The
                               consistently across the nation.                   checklists were added to encourage
                                                                                 standardization for on-the-job training.
                                                                                 However, the checklists did not become
                                                                                 effective until September 30, 2013.
Emphasis on Refresher          Promote safety culture and help               X   The first cycle of this cadre-led and
Training                       controllers maintain proficiency.                 computer-based instruction training was
2012 CWP                                                                         deployed in February 2012. No results or
                                                                                 impacts were provided.
Staffing to Traffic            Match the number of controllers at            X   FAA will continue to monitor controller
2007-2012 CWPs                 each facility with traffic volume and             workload and volume and adjust hiring and
                               workload and staff to satisfy expected            training plans accordingly.
                               needs 2 to 3 years in advance, in
                               order to ensure sufficient training time
                               for new hires.
Resource Management            Effectively develop and maintain              X   The FAA has procured a commercially
Scheduling Tool                optimal schedules based on traffic,               available “off-the-shelf” system called FAA’s
2012 CWP                       staffing, work rules, and employee                operational planning and scheduling
                               qualification.                                    (OPAS) tool. Management training has
                                                                                 been completed at 16 facilities and is
                                                                                 currently testing at Oakland En Route
                                                                                 Center (ZOA).
Scheduling Tool                Improve controller utilization by             X   See previous initiative.
2005-2006 CWPs                 developing shift-staffing schedules that
                               match controller staffing to traffic
                               workload demand.
Review/Reassess Staffing       Better estimate the required controller       X   FAA is currently working with NATCA on a
Standard Models                staffing needs at the national and                collaborative workgroup to review and
2005-2012 CWPs                 facility level.                                   reassess FAA’s staffing models.
Air Traffic Control Facility   Reduce the hours of operation at air          X   Seventy-two sites are currently under review.
Hours of Operation             traffic facilities with low or no mid-shift       FAA decided not to change operating hours
2005-2006 CWPs                 activity to save money.                           due to the impacts of sequestration and the
                                                                                 government-wide shutdown. FAA will
                                                                                 conduct an annual analysis to determine if
                                                                                 changes are warranted.
Abandoned

Recruitment                    Expand the hiring pool to qualified           X   Due to Ops funding reductions, a decrease of
2005-2012 CWPs                 minority and female candidates and                hiring needs, and the availability of qualified
                               offer eligible developmental controllers          veteran candidates, the FAA discontinued
                               the Montgomery GI Bill education                  this initiative.
                               benefits.
Examine and Streamline the Reduce the time needed to obtain                  X   In FY 2008/FY 2009 FAA implemented Pre-
Clearance Process          medical clearances and background                     Employment Processing Centers (PEPCs)
2005-2007 CWPs             investigations.                                       which reduced processing time from 6
                                                                                 months to 1-3 months. However, due to Ops
                                                                                 funding reductions, the FAA discontinued this
                                                                                 initiative.
Streamline Hiring Process      Centralize the controller hiring process         See previous initiative.
2008-2010 CWPs                 to reduce the time it takes to complete
                               pre-hire screening and maintain a pool
                               of between 3,000 and 5,000
                               applicants.




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                                                                                     22


Evaluate and Redesign        Reduce controller training time to CPC    X   FAA discontinued functional training due to
Facility Training Program    for terminal by eliminating overlap           minor savings in time to certification, and the
2005-2006 CWPs               between academy and facility training         benefits of national standardization
                             through a training process called             outweighed the minor advantages.
                             “functional training.”
Implement Academy            Ensure the effectiveness of the initial   X   A draft Academy recruitment and retention
Instructor Recruitment and   qualification training program and            plan was developed involving 'save-pay' for
Retention                    increase the number of controller             controllers transitioning to the Academy.
2005-2006 CWP                applicants for instructor positions.          However, it was not implemented by FAA.



Source: FAA and OIG analyses of FAA data




Exhibit D. St atus of F AA’ s Controller Producti vit y Initiati ves
                                                               23


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                     Title

Robert Romich                            Program Director

Frank Danielski                          Project Manager

Natasha Thomas                           Senior Analyst

My Phuong Le                             Analyst

Aaron Rodgers                            Analyst

Mi Hwa Button                            Analyst

Petra Swartzlander                       Senior Statistician

Megha Joshipura                          Statistician

Audre Azuolas                            Writer/Editor




Exhibit E. Major Contributors to this Report
APPENDIX. AGENCY COMMENTS                                                                        24




                    Federal Aviation
                    Administration

Memorandum
Date:      June 20, 2014
To:        Matt Hampton, Deputy Assistant Inspector General for Aviation
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: Outcomes of FAA’s Controller Productivity Initiatives


In recent years, the FAA has leveraged its annual Controller Workforce Plan to highlight numerous
ongoing and proposed projects aimed at improving internal administrative operations and
enhancing air traffic services. As outlined by the OIG, these productivity initiatives have focused
upon the Agency’s recruitment processes, training programs, and facility realignment evaluations.
Because the primary focus of many of these initiatives was not necessarily on improving controller
productivity or reducing costs, the FAA has not consistently measured these impacts.

In the current budget climate, there is a more urgent need to identify productivity enhancements
and measure all costs associated with the controller workforce, both directly and indirectly. To that
end, the Air Traffic Organization’s (ATO) Management Services (AJG) has undergone an internal
realignment to focus additional resources on controller utilization and productivity. In addition,
AJG and the FAA’s Office of Finance and Management (AFN) have significantly strengthened
their partnership to enhance coordination and communication on issues that impact controller
staffing, pay, and productivity.

The FAA has also established a Collaborative Resource Work Group which includes
representatives from ATO, AFN, Labor Relations, and the National Air Traffic Controllers
Association (NATCA), the union representing air traffic controllers. Currently, this group is
working to address staffing needs, hiring practices, and other significant influences on controller
productivity and costs.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Assess current controller productivity initiatives to determine whether
they will achieve anticipated cost savings or productivity gains and document the results of this
assessment.

FAA Response: Concur. The OIG correctly noted that the FAA did not provide data to support
the effectiveness of its initiative to redesign en route airspace. This was due to the lack of


Appendix. Agency Comments
                                                                                                   25


sufficient data at that time to accomplish a reliable evaluation. With the realignment and
improved coordination discussed above, the FAA is now better equipped to consistently and
accurately examine initiatives that impact controller productivity and cost.

An example of this can be seen in the En Route Stage 1 Initial qualification training at the FAA
Academy in Oklahoma City. In 2011, the Agency completed the proposed redesign and updated
the corresponding academy training curriculum for En Route students. Under the previous
curriculum, almost 90% of en route new hires successfully completed academy training, but then
more than 20% would fail to complete training to reach full certification at their assigned facility.
One of the major goals of the curriculum change was to better identify candidates that were not
likely to reach full certification before they are assigned to the field.

Since the curriculum change in 2011, the FAA now has enough data to examine this initiative.
The results clearly demonstrate that the new curriculum is more rigorous, and the pass rate has
declined from 88.5% to 75.9%. Based upon the average annual en route new hire class of 750
over the next several years, and the average pay and benefits costs for developmental controllers,
having the Academy screen out a higher percentage of trainees not likely to succeed in the field
translates to savings of approximately $6M-$7M per year.

The Agency will continue to identify new opportunities for productivity enhancements and will
provide the OIG with an update by December 31, 2014.

Recommendation 2: Develop a process to ensure future controller productivity initiatives
include measurable milestones and cost and productivity goals.

FAA Response: Concur. As previously stated, the FAA has historically leveraged its annual
Controller Workforce Plan to highlight a broad variety of initiatives designed to improve
training, hiring, operations, and/or administrative processes. The discussions on these initiatives
have been based primarily on qualitative input and information provided by various program
offices and often, by design, were not fully evaluated in terms of quantifiable productivity
enhancements or cost reductions.

The Agency recognizes the need for greater transparency and more detailed examinations of all
projects that require the investment of personnel and financial resources. The FAA will work
to implement a process that will ensure that future initiatives have measurable metrics and are
evaluated to ensure that they meet productivity and/or cost saving goals. This change will be
reflected in the Controller Workforce Plan scheduled for March 2015.

Recommendation 3: Analyze its operational and financial data to identify opportunities to
increase controller productivity and reduce operating costs.

FAA Response: Concur. It is critical that the FAA accurately assess opportunities for
improving operational efficiencies and reducing operating costs. The FAA has recently made
significant strides toward better utilization of existing data resources to identify opportunities for
additional productivity. Examples include:




Appendix. Agency Comments
                                                                                                 26


   1) Facility Realignment Analyses – In recent years, the Agency’s efforts to combine air
      traffic facilities have met resistance, in part, because they lacked defensible processes for
      evaluating the costs and benefits. Based upon the requirements outlined in Section 804
      of the FAA Modernization and Reform Act of 2012 (P.L. 112-95), the FAA has now
      developed a consistent and auditable process for developing the business cases associated
      with facility realignment. A business case includes a full assessment of the air traffic
      workforce, where FAA weighs the benefits of possible operational efficiencies against
      the potential costs of rising facility levels, which could increase individual controller pay.
      This workforce assessment ties directly to FAA’s annual Controller Workforce Plan and
      represents a detailed and transparent review of the expected impact of facility
      realignment on controller productivity and staffing.
   2) Controller Scheduling – The FAA is evaluating a new controller scheduling tool called
      Operational Planning and Scheduling (OPAS), which is designed to ensure a better match
      between controller schedules and operational requirements. OPAS includes modules to
      improve both day-to-day operations and to conduct higher level assessments of controller
      scheduling practices. This tool is currently being utilized to evaluate work schedules at a
      sample of air traffic facilities in order to establish a baseline from which to measure
      future improvements. Though still in the developmental stage, OPAS represents a
      significant opportunity for the FAA to leverage data and technological resources to
      improve controller productivity and reduce operating costs.
   3) Controller Staffing Study – Section 608 of P.L. 112-95 required the FAA to partner with
      the National Academy of Sciences (NAS) to “estimate staffing needs for FAA air traffic
      controllers to ensure the safe operation of the national airspace system in the most cost
      effective manner.” FAA has worked diligently with NAS and other constituents,
      including NATCA, to not only review FAA’s processes and models for developing
      controller staffing standards, but also to conduct a broader examination of the tools that
      FAA uses to develop its annual staffing and hiring plans for air traffic controllers. The
      Agency has received the final NAS recommendations and is evaluating opportunities to
      improve our forecasting models to ensure enhanced controller productivity and cost
      effectiveness.
The FAA will provide an update to the OIG by October 31, 2014.

Recommendation 4: Require controllers to maintain their own time-on-position records by
signing in and out in Cru-X/ART.

FAA Response: Concur. As the OIG states in the report, per the 2010 National Memorandum
of Understanding (MOU) between FAA and NATCA, operations supervisors are responsible
for maintaining time-on-position records in Cru-X/ART for all controllers. The FAA and
NATCA are presently in discussions to address the current MOU regarding the signing on and
signing off of position agreements and practices. The current Cru-X/ART system is being
replaced with a new Air Traffic Operational Management System (ATOMS). ATOMS will
include a more passive ability to sign in and out. The FAA has initiated a feasibility study for
the replacement of Cru-X/ART, which will be completed by December 31, 2014. Additionally,
the Agency has established a workgroup with representation from internal stakeholders to
identify operational and business requirements. The FAA will provide the OIG with an update


Appendix. Agency Comments
                                                                                              27


by March 30, 2015.

Recommendation 5: Ensure that all facilities implement and use new Cru-X/ART task codes
designed to better differentiate the tasks that controllers are completing.

FAA Response: Concur. The Office of Technical Safety and Training within the ATO is
reviewing the task codes currently available to the controller training and safety related
activities. The FAA has entered into a review of the MOU with NATCA to expand the use of
codes to accurately reflect controller duties. The FAA will provide an update to the OIG by
November 30, 2014, on the review and required negotiations.




Appendix. Agency Comments
